                                    Office of the Inspector General
                    United States Government Accountability Office


GAO/OIG

May 2010
               PERFORMANCE
               MEASURE

               GAO Had a
               Reasonable Basis for
               Reporting Its Largest
               Financial Benefits for
               Fiscal Year 2009




GAO/OIG-10-4
                                                               Office of the Inspector General
                                               United States Government Accountability Office




Memorandum

Date:          May 21, 2010

To:            Acting Comptroller General Gene L. Dodaro

From:          Inspector General Frances Garcia

Subject:       Performance Measure: GAO Had a Reasonable Basis for Reporting Its
               Largest Financial Benefits for Fiscal Year 2009

We have completed our audit of GAO’s fiscal year 2009 financial benefits of $1 billion
or more. GAO annually assesses its performance using a combination of performance
measures to help determine how well it is meeting the needs of the Congress and
maximizing its value to the public. One of these measures—financial benefits—is an
estimate of the federal monetary effect of agency or congressional actions or changes
in agency practices that are directly related to GAO’s work. Based on our audit of 10
GAO accomplishment reports 1 that claim financial benefits valued at $1 billion or
more, we determined that GAO had a reasonable basis to claim financial benefits of
$24.95 billion cited in the reports. These large dollar value accomplishment reports
accounted for 58 percent of GAO’s $43 billion in total financial benefits claimed for
fiscal year 2009. As a result of our work, GAO took additional steps to better
document these benefits and made adjustments in amounts claimed before reporting
the final benefit total in its fiscal year 2009 Performance and Accountability Report. 2
In addition, our audit identified an opportunity to strengthen GAO’s process for
reporting financial benefits by incorporating more technical expertise in calculating
benefit amounts. In January 2010, GAO announced new procedures for expanding the
role of GAO’s Center for Economics to assist the mission teams in calculating
financial benefits for accomplishment reports if they are reported to be $500 million
or more. Because of the adjustments made to the amounts claimed for the
accomplishment reports we audited, we are recommending that GAO explore



1
 Accomplishment reports are used to document the amounts claimed as financial benefits and are
linked to specific recommendations or actions taken in response to GAO’s work.
2
GAO, Performance and Accountability Report—Fiscal Year 2009, GAO-10-234SP (Washington, D.C.:
Nov. 13, 2009).

Page 1                                 GAO/OIG-10-4 Financial Benefits Performance Measure
additional ways to assist teams in developing accomplishment reports that meet
GAO’s policy requirements. GAO concurred with our recommendation.

The primary objective of our audit was to determine whether the 10 accomplishment
reports that originally claimed financial benefits of $1 billion or more and their
supporting documentation met policy requirements and, thus, whether GAO had a
reasonable basis to claim these financial benefits. In addition, we examined GAO’s
compliance with key internal controls 3 for reviewing and approving these large dollar
value accomplishment reports and whether these controls provided reasonable
assurance for claiming financial benefits. (See attachment I for a detailed discussion
of our methodology.)

Background

GAO’s findings and recommendations may produce measurable financial benefits for
the federal government when the Congress or agencies act on them to (1) reduce
annual operating costs or the costs of multiyear projects or entitlements or
(2) increase revenues from asset sales or changes in tax law or user fees. The funds
made available in response to GAO’s work may be used to reduce government
expenditures or may be reallocated to other areas.

GAO uses financial benefit information, in part, to indicate a return on investment for
the agency. For example, in its fiscal year 2009 Performance and Accountability
Report, GAO noted that its $43 billion in financial benefits represented a return of $80
for every $1 invested in the agency.

To record a financial benefit, GAO staff prepare an accomplishment report according
to guidance provided in the GAO Policy Manual and in any supplemental guidance
provided by the Chief Quality Officer, who manages the Quality and Continuous
Improvement (QCI) office. 4 This guidance specifies that certain conditions be met,
including that the agency or congressional action for which the financial benefit is
claimed must be either completed or substantially completed and must have been
taken within a certain time frame of filing the accomplishment report (generally
within the past 2 fiscal years). Also, it must be shown that GAO influenced the
action—that is, there should be a cause-and-effect relationship between GAO’s work
and the action taken that resulted in the financial benefit. Another condition specifies
the number of years’ worth of benefits that can be claimed according to benefit type.
GAO also prefers that, if possible, estimates of financial benefits be from non-GAO
parties, such as the affected agency, congressional committees (such as the Joint
Committee on Taxation), or the Congressional Budget Office. However, third-party




3
 Internal control comprises the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal control includes the processes and procedures
for planning, organizing, directing, and controlling program operations and management’s system for
measuring, reporting, and monitoring program performance.
4
 QCI assists the Comptroller General and the Chief Operating Officer in ensuring that GAO’s products
and services are of the highest quality.

Page 2                                   GAO/OIG-10-4 Financial Benefits Performance Measure
estimates may not be available, thus requiring GAO to develop its own estimates,
often using agency-provided data.

Internal controls are an important element of GAO’s policy guidance and include an
extensive review and approval process that helps to ensure the reliability of the
financial benefits claimed. For example, at the mission team level, each
accomplishment report for financial benefits is documented to show that all policies
have been met, and a senior executive (referred to as a director) confirms
compliance through a supervisory review. Then, another GAO staff member not
involved in the work that led to the accomplishment report independently checks the
supporting statements of facts, figures, and dates for accuracy and verifies that the
accomplishment report is supported by the evidence (referencing). Additionally, the
managing director of the mission team conducts a supervisory review before the
accomplishment report is forwarded to the Chief Quality Officer for final agency
approval. In accordance with new procedures adopted for fiscal year 2009 financial
benefits, the managing director signs the accomplishment report and prepares a
separate memorandum addressed to the Chief Quality Officer attesting that the
proposed accomplishment report meets GAO’s standards. In addition, for fiscal year
2009 accomplishment reports that claim financial benefits between $500 million and
$1 billion, the Chief Quality Officer required a second review (in addition to QCI’s
internal review). After completing a review, the second reviewer provides the Chief
Quality Officer a memorandum stating that the proposed accomplishment report
meets or does not meet GAO’s standards. The Chief Quality Officer approves all
financial accomplishment reports claiming financial benefits of $100 million or more.

Also, for fiscal year 2009, the Acting Comptroller General requested that the Office of
the Inspector General (OIG) audit all accomplishment reports valued at $1 billion or
more after they have been approved by the Chief Quality Officer but before the
agency published its final benefit amount in its fiscal year 2009 Performance and
Accountability Report.

Amounts for Financial Benefits We Reviewed Are Reasonable, but
Opportunities Exist to Improve the Accomplishment Reporting Process

We determined that GAO had a reasonable basis to claim $24,947,909,935 in financial
benefits for the 10 accomplishment reports of $1 billion or more we audited. Based
on our work, mission teams made adjustments to 6 accomplishment reports that both
increased (by a total of $1.19 billion) and decreased (by a total of $2.45 billion) the
amounts originally claimed. Adjustments ranged from a $281,000 decrease to a $1.19
billion increase. Therefore, while GAO originally planned to claim a total of $26.21
billion for these 10 accomplishment reports, the agency ultimately claimed and
reported a total of $24.95 billion for 9 accomplishment reports. As discussed below,
GAO plans to claim the financial benefits for the tenth accomplishment report in
fiscal year 2010.

In the six cases where adjustments in benefit amounts were made, the mission teams
reconsidered the amounts originally claimed in light of specific questions we raised
and additional efforts taken by the teams to respond to those questions. For example,
a mission team decided to defer 1 of the 10 accomplishment reports we audited—
which originally claimed financial benefits of $1.15 billion—to ensure that the
Page 3                             GAO/OIG-10-4 Financial Benefits Performance Measure
agency’s action in restructuring the program was final and not subject to further
change. GAO’s policy is to claim benefits once an action is completed or substantially
completed, and in this case, the agency revamped the program GAO reviewed for the
second time since 2008. Additionally, the agency announced its latest decision to
restructure the program after the President’s budget went to the Congress and after
an oversight committee had deliberated on the agency’s budget. Therefore, the extent
of congressional review of, and concurrence with, the agency was not clear. Upon
reconsideration, the mission team decided to postpone completing the
accomplishment report until next year, and the entire benefit amount was removed
from the total amount of financial benefits claimed and reported for fiscal year 2009.

In the five other cases where adjustments in benefit estimates occurred, the teams
took additional steps to comply with specific agency policies relating to
documentation of benefits and to avoid any potential overlap in claimed benefits.

•   In two of these cases, we questioned whether the mission teams had calculated
    benefits in accordance with GAO’s policy that generally requires the first year in
    which the changes are implemented to be included in the time frame used to
    calculate the claimed amount. In one of these cases, in which GAO’s work resulted
    in a cost reduction to a multiyear project, the mission team claimed 5 years of
    financial benefits beginning with fiscal year 2009. However, supporting
    documentation indicated that these benefits actually began to accrue during fiscal
    year 2008. The team adjusted its benefit estimate accordingly and, as a result,
    reduced its originally claimed amount by $728.7 million to $5.07 billion. In the
    other case, we raised a question about when the financial benefits actually started
    to accrue. Upon further review, the team determined the benefits began to accrue
    much earlier than originally claimed. Also, while GAO’s policy only allows mission
    teams to claim as benefits the difference in the amounts between what the agency
    was already doing (generally referred to as the “baseline”) and what actually
    happened after GAO’s involvement, the team had not subtracted the baseline
    amount from each year of claimed benefit amounts. After reconsideration, the
    team recalculated the amount of benefits, resulting in an increase of $1.19 billion
    to $3.97 billion. These two cases illustrate the importance of correctly establishing
    the year benefits begin to accrue, as well as the baseline amount.

•   For a third accomplishment report, we identified two fiscal year 2008
    accomplishment reports that appeared to claim portions of the benefits being
    claimed in this fiscal year 2009 accomplishment report. To avoid any potential for
    overlap, the mission team decided to reduce its claimed benefit amount by $466
    million to $5.25 billion.

•   In the fourth case, we questioned whether the documentation for the
    accomplishment report adequately supported the financial benefits estimate. In
    response, the team obtained additional written documentation, which resulted in a
    $106 million decrease in benefits to $1.27 billion.

•   In the last case, the mission team had inadvertently rounded up the benefit amount
    rather than reporting the full amount. Once this correction was made, the claimed
    benefit was reduced by $281,000 to $2.89 billion.


Page 4                              GAO/OIG-10-4 Financial Benefits Performance Measure
In all six cases, the amounts of financial benefits claimed were adjusted prior to being
reported in GAO’s fiscal year 2009 Performance and Accountability Report.

Our audit showed that GAO’s mission teams generally documented compliance with
the key elements of GAO’s internal control process. For example, the files contained
documentation that the referencing process was completed, including supervisory
reviews. They also contained documentation of the newly required managing
director’s memorandum attesting that GAO’s standards for claiming these financial
benefits were met. In addition, the accomplishment reports were reviewed and signed
by GAO’s Chief Quality Officer, signifying final agency approval.

At the same time, our audit indicated other factors may have contributed to claimed
amounts being adjusted as a result of our work. One is that GAO’s policies for
claiming financial benefits are complex and require judgments. Another contributing
factor may be that the mission teams were not seeking out advice from GAO’s in-
house economists—for example, we identified only one instance where a mission
team consulted with GAO’s Applied Research and Methodology (ARM) team’s Center
for Economics prior to final agency approval. In the one case where consultation
occurred before our audit, QCI staff asked the team to seek assistance from both
GAO’s Center for Economics and the agency. As a result, the team recalculated the
amount to be claimed, reducing the benefit by $964 million.

As part of our audit procedures, we directed technical questions regarding benefit
calculations to GAO’s Center for Economics, and the center’s Director was able to
assist one of the mission teams in better documenting financial benefits. In this
instance, the Director’s review of this accomplishment report raised questions about
the team’s methodology and the reasonableness of the 5-year estimate. He identified
technical issues regarding the comparison of the amount of benefits that would be
achieved before and after GAO’s involvement, particularly as it might affect the net
present value calculation. 5 With the additional data provided by the team, the center’s
Director determined that the team had a sound methodological basis for its benefit
estimate, and no adjustment in the amount was required. Although the amount did
not change in this case, the ARM review provided additional assurance that the
benefit estimate was reasonable.

In a January 28, 2010, memorandum to managing directors, GAO’s Chief Quality
Officer introduced new procedures for approving financial accomplishment reports
beginning in fiscal year 2010. (See attachment II for a copy of this memorandum.)
These new procedures will require teams to consult with the agency’s Center for
Economics on the calculation of amounts for accomplishment reports that claim
financial benefits of $500 million or more. In this memorandum, the Chief Quality
Officer noted that these procedures would formalize a good practice that several
teams currently use to help document financial benefits. For reporting financial
benefits of $500 million or more, the new procedures require teams to provide the
Center for Economics with documentation supporting (1) the baseline amount from


5
 Present value is the discounted value of a payment or stream of payments to be received or paid in the
future, taking into consideration a specific interest or discount rate.

Page 5                                   GAO/OIG-10-4 Financial Benefits Performance Measure
which the financial benefit is calculated, (2) the estimated financial benefit, and (3)
the calculation of present value. The center will review the documentation, work with
the teams if needed, and sign off on the estimated financial benefit amount. Further,
the managing directors, in their memorandum attesting that an accomplishment
report meets GAO’s standards, will now include a statement that the Center for
Economics concurs with the financial benefit amount. We believe that
implementation of these newly announced procedures is a positive step toward
strengthening GAO’s internal controls for accomplishment reports and could lead to
better supported and more reliable estimates of benefits.

Given the number and dollar value of adjustments that were made to the
accomplishment reports we audited, we believe the mission teams could benefit from
additional assistance in developing accomplishment reports. As previously
mentioned, GAO’s policies for claiming financial benefits are complex, and we
believe these policies may not be fully understood by the mission teams. Therefore,
GAO may want to focus more attention on assisting mission teams in implementing
these policies, as well as in complying with internal controls. To provide added
assurance that GAO’s benefit claims are reasonable, GAO management asked the OIG
to audit GAO’s largest financial accomplishment reports and to provide our
preliminary results on benefit amounts before publication of GAO’s fiscal year 2009
Performance and Accountability Report. GAO management is committed to ensuring
the reliability of its financial benefits performance measure. Because an audit cannot
be part of an agency’s controls, we believe GAO should examine how it can better
assist teams in a way so as to make these controls more efficient and effective for
producing reliable estimates of financial benefits.

Conclusions

Financial benefits are one of the key measures of GAO’s performance. We determined
that GAO had a reasonable basis to claim financial benefits of $24.95 billion for its
large dollar value accomplishment reports for fiscal year 2009. We also identified
opportunities for GAO to strengthen its accomplishment report process, for example,
by establishing a greater role for GAO’s Center for Economics in reviewing estimates
of financial benefits. To its credit, GAO has already taken action to create a review
process that includes GAO’s Center for Economics. Moreover, we believe GAO may
be able to develop a more effective and efficient system of internal controls over
large dollar value accomplishment reports by focusing more attention on the mission
teams in their development of large dollar value accomplishment reports. Such
assistance would increase management’s confidence in the reliability of the agency’s
financial benefit claims.

Recommendation

To provide added assurance that GAO’s financial benefits performance measure
reflects a reasonable estimate of benefits and to provide a more efficient and
effective system of internal controls over large dollar value accomplishment reports,
we are recommending that GAO’s Acting Comptroller General direct the Chief
Quality Officer to further analyze the issues we identified and take appropriate steps
to assist mission teams in complying with agency policies to achieve greater
reliability in the amount of financial benefits GAO reports.

Page 6                             GAO/OIG-10-4 Financial Benefits Performance Measure
Agency Comments

The Inspector General provided GAO with a draft of this report for review and
comment. In written comments, which are included in attachment III, GAO concurred
with our recommendation and indicated that it would consider ways to further assist
mission teams in reporting on performance measures and described some actions
already under way that the agency believes addresses our recommendation. GAO also
said it would continue to look into this issue. GAO provided technical comments that
we incorporated, as appropriate.

Actions taken in response to our recommendation should be reported to my office
within 60 days.

                      ____________________________________

We are sending copies of this report to the other members of GAO’s Executive
Committee (the Chief Administrative Officer and the Acting General Counsel), the
Managing Director of Quality and Continuous Improvement, and GAO’s Audit
Advisory Committee. The report also is available at no charge on the GAO Web site at
http://www.gao.gov.

If you or your staff have any questions about this report, please contact me at (202)
512-5748 or garciaf@gao.gov. Key contributors to this report were Cathy Helm
(Deputy Inspector General), Alan Belkin (General Counsel), Wendy Jaffe, Ben Ritt,
and Keith Steck.

Attachments (3)




Page 7                             GAO/OIG-10-4 Financial Benefits Performance Measure
Attachment I

                              Scope and Methodology

The primary objective of our audit was to determine whether the 10 accomplishment
reports that originally claimed financial benefits of $1 billion or more and their
supporting documentation met policy requirements and, thus, whether GAO had a
reasonable basis to claim these financial benefits. For each accomplishment report,
we compared the documentary support for the claimed financial benefits against the
GAO Policy Manual requirements, focusing primarily on requirements that would
affect the benefit amount. To assist in our analysis, we used a standardized
worksheet linked to specific GAO Policy Manual requirements. Also, to ensure
consistency in our analysis, we had one auditor conduct a primary review of the
supporting documentation for each accomplishment report and a second auditor go
over the results of the first auditor’s work and raise any questions and concerns. After
agreement was reached by the two auditors for each report, we discussed the results
of our review with the appropriate mission team officials, as needed. Also, as needed,
we obtained additional support from GAO’s Center for Economics, to allow us to
complete our review and make a determination as to the amount of financial benefits
that we believed was reasonable for GAO to claim. We provided the Acting
Comptroller General the results of our audit of GAO’s fiscal year 2009 financial
benefits to assist in his determination of the amount of benefits GAO would claim in
its fiscal year 2009 Performance and Accountability Report.

In addition, we examined GAO’s compliance with key internal controls for reviewing
and approving these large dollar value accomplishment reports and whether these
controls provided reasonable assurance for claiming financial benefits. We compared
the documentary support for the claimed financial benefits against GAO’s internal
control requirements for accomplishment reports, such as referencing and various
levels of management approval. To determine if the controls ensured the reliability of
financial benefit claims, we compared the results of this analysis (i.e., whether there
was documentation to show the controls were present) with the results of our
analysis relating to benefit amounts (i.e., whether there were adjustments made to
benefit amounts).

We conducted this performance audit from September 2009 to May 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




Page 8                             GAO/OIG-10-4 Financial Benefits Performance Measure
Attachment II




      Memorandum

      Date:         January 28, 2010

      To:           GAO Managing Directors

      From:         Chief Quality Officer – Timothy P. Bowling

      Subject:      Procedures for Approving Financial Accomplishment Reports

      In FY 2009 we introduced and tested some changes in procedures for approving
      financial accomplishment reports. These changes, as outlined in my memo of August
      4, 2009, were intended to strengthen and better document the underpinnings of
      financial benefits resulting from GAO work. Based on our experience using these
      procedures, we have decided to formalize a good practice that several teams
      currently use to help document financial benefits, i.e., consulting with ARM’s Center
      for Economics. Effective immediately, teams should consult with the Center for
      Economics on the calculation of the financial benefit amounts for accomplishments
      of $500 million or more as described above.

      For financial accomplishments of $500 million or more, teams should provide the
      Center for Economics with the documentation supporting (1) the baseline amount
      from which the financial benefit is calculated, (2) the estimated financial benefit, and
      (3) the calculation of present value. The Center will review the documentation, work
      with the teams if needed, and sign off on the estimated financial benefit amount.
      Tom McCool is the Center for Economics’ contact for this step.

      Consistent with our current process, once the Managing Director reviews and signs
      the proposed accomplishment report, the report along with the associated
      workpapers and the attestation memorandum are forwarded to QCI. The attestation
      memo should now include a statement that ARM’s Center for Economics concurs
      with the financial benefit amount.

      If you have questions, please call me (x27680), Steve Backhus (x27111), or Chip
      Breen (x29035).




      Page 9                             GAO/OIG-10-4 Financial Benefits Performance Measure
Attachment III

                 Comments from GAO




(998271)


Page 10            GAO/OIG-10-4 Financial Benefits Performance Measure
                      To report fraud, waste, and abuse in GAO’s internal operations, do
Reporting Fraud,      one of the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202)
                          512-8361.

                      •   Write to:

                      GAO Office of Inspector General
                      441 G Street NW, Room 1808
                      Washington, DC 20548

Obtaining Copies of   To obtain copies of OIG reports and testimony, go to GAO’s Web
                      site: www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony


Congressional         Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
                      U.S. Government Accountability Office, 441 G Street NW, Room
Relations             7125, Washington, DC 20548

Public Affairs        Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
                      U.S. Government Accountability Office, 441 G Street NW, Room
                      7149, Washington, DC 20548




                      This is a work of the U.S. government and is not subject to copyright protection in the
                      United States. The published product may be reproduced and distributed in its entirety
                      without further permission from GAO. However, because this work may contain
                      copyrighted images or other material, permission from the copyright holder may be
                      necessary if you wish to reproduce this material separately.




                             Please Print on Recycled Paper
